UNITED STATES ATTORNEY'S OFFICE
Western District of Washington

PRESS ROOM



April 22, 2004


                        THIRD DEFENDANT PLEADS GUILTY
                 IN NATIONWIDE MOVING COMPANY PROSECUTION


MARTIN KIRK II, age 24, of Phoenix, Arizona, pleaded guilty yesterday in United
States District Court in Tacoma, Washington, to six counts of Interference with
Commerce by Extortion. (Violation of Title 18, United States Code, Sections 1951
and 2.) KIRK is one of seven defendants who have been charged in the case United
States v. NATIONWIDE MOVING SYSTEMS (aka NORTHSTAR MOVING &
STORAGE, aka AMERICAN STAR MOVING & STORAGE). Kirk is the third of the
seven defendants to enter a guilty plea.

The Indictment in this case charges that NATIONWIDE MOVING SYSTEMS, its
owners ERIK and TANYA DERI, and other employees including YOSEF NAHAM,
YUVAL DEREI, and MARTIN KIRK II, conspired to lure customers into doing
business with NATIONWIDE by intentionally offering fraudulently low moving
estimates and then inflating the price of the move. Once the goods were loaded onto
the moving truck, the indictment charges they threatened to withhold delivery of the
customers' goods until the customers paid the inflated price to NATIONWIDE.

In support of his guilty plea, KIRK admitted in his Plea Agreement that he
participated in a variety of techniques and ruses intended and designed to coerce
the NATIONWIDE customers into paying prices for their moves that substantially
exceeded the company's original bid. Those practices included: underpacking the
boxes of the customers in order to overcharge them for unnecessary packing
materials and to deceive them regarding the volume of their goods; underpacking
the moving trucks to deceive the customers regarding the volume of their goods;
making false statements to customers regarding the capacity of the moving trucks in
order to deceive the customers regarding the volume of their goods; pressuring
customers to sign blank bill of lading forms to confuse the customers, and to use the
documents later to facilitate extortion; deceiving customers regarding the weighing of
moving trucks prior to picking up a customer's goods; and knowingly falsifying the
weight of the moving trucks when they were weighed.

Interference with Commerce by Extortion, as charged in the six counts to which
KIRK pleaded guilty, is punishable by twenty years imprisonment and a fine of
$250,000.00.

MARTIN KIRK II has a sentencing date of July 9, 2004. The trial date for the
remaining defendants is May 10, 2004.

The case was investigated by the United States Department of Transportation's
Office of Inspector General, with assistance provided by the Federal Motor Carrier
Safety Administration.

For further information, please contact Public Affairs Officer Emily Langlie at
(206) 553-4110, or Assistant United States Attorney Kathryn Warma, at (206) 553-
2279.
